<html>
<title> - FEMA: PRIORITIZING A CULTURE OF PREPAREDNESS</title>
<body><pre>[Senate Hearing 115-442]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-442

              FEMA: PRIORITIZING A CULTURE OF PREPAREDNESS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
        
             [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
             
             
		U.S. GOVERNMENT PUBLISHING OFFICE
		
32-452 PDF	       WASHINGTON : 2019




                    RON JOHNSON, Wisconsin, Chairman
JOHN McAIN, Arizona                  CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
                Gabrielle D'Adamo Singer, Chief Counsel
        Michael J. Lueptow, Chief Counsel for Homeland Security
               M. Scott Austin, U.S. Coast Guard Detailee
                  Barrett F. Percival, Staff Assistant
               Margaret E. Daum, Minority Staff Director
                  Phylicia L. Woods, Minority Counsel
                 Claudine J. Brenner, Minority Counsel
           Joel F. Walsh, Minority Professional Staff Member
                     Laura W. Kilbride, Chief Clerk
                   Bonni E. Dinerstein, Hearing Clerk
                   

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Peters...............................................    11
    Senator Harris...............................................    14
    Senator Heitkamp.............................................    17
    Senator Lankford.............................................    19
    Senator Hassan...............................................    23
    Senator Daines...............................................    26
    Senator Jones................................................    28
Prepared statements:
    Senator Johnson..............................................    33
    Senator McCaskill............................................    34

                               WITNESSES
                       Tuesday, October 31, 2017

Honorable William B. ``Brock'' Long, Administrator, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security
    Testimony....................................................     4
    Prepared statement...........................................    39

                                APPENDIX

Chart referenced by Senator Johnson..............................    46
Document submitted by Senator Harris.............................    47
Statements submitted for the Record:
    International Association of Emergency Managers, National 
      Association of Counties and National Emergency Management 
      Association................................................    54
    National Governors Association...............................    59
    Oxfam America................................................    64
    America Red Cross............................................    72
Responses to post-hearing questions for the Record:
    Mr. Long.....................................................    77

 
              FEMA: PRIORITIZING A CULTURE OF PREPAREDNESS

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Lankford, Daines, McCaskill, 
Heitkamp, Peters, Hassan, Harris, and Jones.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. The hearing will come to 
order. I can see that most of our available audience must be 
over on the House side with Mr. Zuckerberg. But I certainly 
want to welcome Administrator Brock Long from the Federal 
Emergency Management Agency (FEMA).
    I ask unanimous consent that my written statement be 
entered in the record,\1\ and I will just have a couple opening 
comments here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 33.
---------------------------------------------------------------------------
    First of all, I think it is without a doubt, particularly 
when you take a look at the massive problem you had to deal 
with, within days of being confirmed, with three hurricanes and 
the wildfires out in California, there has been some pretty 
dramatic improvement made, continuous improvement within FEMA's 
administration of and handling of these disasters since 
Hurricane Katrina. I think that is a very good thing.
    But there is no doubt about that you never achieve 
perfection, and there is always opportunity for additional 
continuous improvement, and that is really what this hearing is 
all about. Take a look at what could have been improved upon 
and what do we need to do moving forward. And I know 
Administrator Brock Long will talk about his Strategic Plan for 
FEMA, and we will talk about a number of things.
    I notice in your Strategic Plan kind of a watch word is 
disasters should be federally supported, State managed, locally 
executed. And I guess the only bone I would pick with that is I 
would change the order of that, and I would say State managed, 
locally executed, federally supported. And the reason I point 
that out is, if we can put up our chart,\1\ when you take a 
look at the number of Federal disaster declarations over 
almost--well, we are not quite a century yet, but over the last 
70 years or so, there has just been a dramatic increase over 
the last three or four decades.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 46.
---------------------------------------------------------------------------
    It is interesting to note that the high-water marks are the 
year before a Presidential reelection--I do not know if there 
is any correlation there or not, but, again, it has just been a 
dramatic 
increase, and my concern--and I think it is a legitimate 
concern--is that as local and State governments look to the 
Federal Government to come in--and, of course, the Federal 
Government has to when we have these massive disasters. But if 
State and local governments rely on FEMA time after time, if 
they get addicted to FEMA, they are going to be less inclined 
to really produce that culture of emergency preparedness that 
you are talking about in your Strategic Plan.
    So I would like you to address a little bit that potential 
moral hazard in FEMA doing an even better and better job. We 
want you to do a better and better job, but what we really want 
is we want State and local governments to be completely 
prepared so that it really can be State managed, locally 
executed, federally supported.
    And with that, I will turn it over to my Ranking Member, 
Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\2\

    Senator McCaskill. Thank you, Mr. Chairman, and thank you, 
Mr. Long, for being here today. I, too, want to start with a 
positive and recognize the progress that has been made since 
Hurricane Katrina. I think we have all witnessed a much more 
efficient and a much more effective FEMA from the lessons 
learned from Hurricane Katrina and other catastrophes.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 34.
---------------------------------------------------------------------------
    However, I cannot get through this hearing, as you might 
well imagine, without talking about some of the problems that 
we continue to see, especially on contracting.
    I am sure you are familiar with the report that we issued 
this week or last week on emergency tarps and sheeting 
contracts. It was really problematic. FEMA approved this 
contract without vetting, $73 million to two contractors with 
no relevant past performance, one of which had only existed for 
2 months, did not take appropriate steps to assess the 
capabilities, and ultimately had to cancel contracts with both 
companies due to their failure to deliver.
    That is not the only serious contracting problem we had in 
the aftermath of our hurricanes last hurricane season: a $156 
million contract to deliver meals to the people of Puerto Rico. 
FEMA contracted with a company in Atlanta that had one full-
time employee and a history of contract cancellations. All 
someone would have had to do is check and do just some basic 
due diligence to see that this company had had serious 
contracting issues with the Federal Government in the past. And 
I do not know how you give a $156 million contract to a company 
that has one employee. I do not know how that happens. 
Obviously, that contract also had to be cancelled, all of these 
contracts were still at a cost to the Federal Government and, 
obviously, a painful cost to the people who needed tarps and 
needed meals.
    We have already had tornadoes in southeast Missouri this 
year. We have extensive flooding in Michigan, Ohio, and 
Wisconsin, and our hurricane season begins in 2 months. I would 
love to spend some time talking about what steps you have 
taken, particularly on the contracting front. And I think we 
have to obviously now expect that you might get slammed with 
three hurricanes, because you all were dealing with Texas, 
Florida, and Puerto Rico simultaneously. And I understand the 
stress that puts on the contracting system, but you have to 
prepare for that. That is what this is all about. We now know 
that that very easily could happen, and clearly we have to 
anticipate it.
    I also would like you to address the 2019 budget proposal 
that the President put forward in February. The proposed budget 
was stunning to me. The President wanted to cut funding for 
counterterrorism grants; he wanted to eliminate training and 
exercise programs that give State and local emergency 
responders the skills they need for natural disasters. It would 
slash the pre-disaster mitigation grants and Federal flood 
mapping programs that obviously are very important for our 
preparation for future natural disasters. It does not build the 
culture of preparedness that I know you embrace, and I want to 
have a frank discussion about how we move forward.
    Obviously, I do want to end my opening comments by 
complimenting the Federal workforce and the National Guard who 
appropriately are always on the front line for natural disaster 
response. And I know how proud I am of Missouri's National 
Guard and the work they do and the training that they have to 
deal with natural disasters. I hope, especially as we get into 
the hurricane season and get into the tornado season, that they 
are not in any way depleted in terms of their ability to 
respond to these natural disasters because of a political 
pulling to the border.
    Thank you, Mr. Chairman.
    Chairman Johnson. It is the tradition of this Committee to 
swear in witnesses, so if you will stand and raise your right 
hand. Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Long. I do.
    Chairman Johnson. Please be seated.
    Senator McCaskill did beat me to the punch in wanting to 
extend this Committee's gratitude to the entire Federal 
workforce. I would love to have you kind of mention a little 
bit about that in your opening statement as well, the 
Operations Center. It was not just FEMA employees or the 
Department of Homeland Security (DHS) employees. These were 
individuals from around the Federal Government, different 
agencies that came and manned that Operations Center 24/7 for a 
couple of months at least. So if you can mention that, I would 
appreciate that.
    But we also want to thank you for your service. You started 
and you were hit with something that this Nation quite honestly 
has never seen in terms of disaster management, so we want to 
thank you for that.
    Our witness is the Honorable Brock Long, who is the 
Administrator of the Federal Emergency Management Agency. In 
his role he leads FEMA's workforce to fulfill its mission in 
responding to natural disasters and emergencies facing the 
United States, including in 2017 Hurricanes Harvey, Irma, and 
Maria, and the California wildfires. Administrator Long.

     TESTIMONY OF THE HONORABLE WILLIAM ``BROCK'' LONG,\1\ 
   ADMINISTRATOR, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Long. Chairman Johnson, Ranking Member McCaskill, and 
Senator Peters, thank you so much for allowing me to be here 
today. I guess this marks the fifth time I have been before 
Congress in 9 months since coming on board, and I want to stop 
and thank you as well, because as you alluded to, Chairman, 
emergency management and disaster response and recovery 
requires the whole community. It requires all of us being 
unified, and for us to get better to ultimately build a more 
resilient and prepared Nation, it requires me communicating to 
you about our needs and the Congress acting, as you have, and I 
appreciate it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Long appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    Thank you for the three supplementals, and not only the 
three supplementals, but specifically the authorities that were 
provided to FEMA in and around the challenges that we faced 
with the deferred maintenance issues in Puerto Rico. They are 
much needed to be able to build a stronger, more resilient 
Puerto Rico going forward. And I look forward to continuing to 
ask you for your support on several different authorities that 
I believe we need as a Nation to push forward and make a 
better-prepared Nation.
    To wrap the magnitude and to put the numbers around the 
magnitude of what we went through, we estimate now that about 
47 million Americans, or 15 percent of the population, were in 
some way, shape, or form impacted by the events from just 
Hurricanes Harvey, Irma, and Maria and the California 
wildfires.
    We have registered approximately 4.8 million just under 5 
million people in our individual assistance system to kick-
start recovery. We cannot make people whole, but just to kick-
start it. But to put that into context, more than half of the 
survivors that FEMA has registered over the past 10 years were 
put into our system within the last 9 months. That is an 
extraordinary number. And, again, all of these numbers are 
moving targets because we are putting more and more down every 
day and putting more and more people in different places. But 
as of April 10, FEMA has provided approximately $22 billion 
just to three hurricanes and the California wildfires down to 
those who were impacted; $11 billion of that has gone to the 
Commonwealth of Puerto Rico alone.
    In addition, I appreciate the thanks toward my staff. These 
men and women do not get credit for what they do. They are 
working disasters in 35 States and territories this year. 
Thirty-five. They work around the clock. They sacrifice their 
personal lives to take care of others. It is an honor to lead 
these people every day.
    Major lessons learned. Survivable and redundant 
communications is something that we have to tackle with the 
private vendors. We cannot lose communications. Forget 
interoperability. We have to have the ability to operate and 
communicate. And we lost that. We need all-hazards 
communications capabilities. We have got to streamline a very 
fragmented recovery process. As I have said, recovery funding 
comes from 17 different Federal Government agencies, and it is 
too difficult to understand what you are entitled to and how to 
put it to work.
    I need greater granting authority. I want to hit the reset 
button on disaster housing. I need greater granting authority. 
It is not the Federal Housing Management Agency. It is not the 
Federal Electricity Management Agency. I need greater granting 
authority to do housing more effectively and efficiently and to 
allow Governors greater ability to control their own destiny.
    Of course, training emergency managers all over the country 
at all levels is the most important thing that we need. Nothing 
is more important than the well-trained emergency manager.
    We need to increase State management costs to allow them to 
be able to hire force account labor or consulting firms to 
augment their staff as well, which would require some 
legislative changes. And, obviously, it is a no-brainer: More 
investment in pre-disaster mitigation rather than doing it 
after the fact is ultimately going to reduce disaster costs. 
But I also have some other ideas that we can change about why 
we repair public facilities that could be covered by private 
insurance. If you want to reduce disaster costs, maybe we 
should look at things like that.
    Going forward, yes, we have put forward a new Strategic 
Plan that I am not only asking just my staff to embrace, but I 
am asking the whole community and all of you to embrace. We 
took 2,300 comments from our constituents. We are taking 
lessons learned from 2017. We do a trend analysis. We arrive at 
three major goals that are supported by four subset goals:
    Build a true culture of preparedness, which we do not have. 
We have to increase the access to tangible training to our 
citizens for doing Cardiopulmonary resuscitation (CPR). One in 
four of us is going to do CPR in our lifetime, according to the 
Red Cross. We have to financially get them ready. Asset poverty 
is getting in the way, which is increasing the need for 
individual assistance on FEMA's back end. Too many people are 
letting mortgages lapse, as we saw in the California wildfires, 
to have extra money in their retirement. So, therefore, it puts 
more drain on FEMA on the individual assistance side. So we 
have to cover the insurance gaps. Insurance is the first line 
of defense, not FEMA assistance. We have to incentivize pre-
disaster mitigation. The key to resiliency is at the local 
level--land-use planning, building codes--and we should 
incentivize that as a country to make sure that local leaders 
are doing that. FEMA cannot create a resilient community on its 
own.
    Goal 2, ready the Nation for catastrophic disasters. I do 
not believe we are ready to go for the low-to no-notice events, 
the catastrophic earthquake in California or the New Madrid, 
because there is too much of a gap on depending on FEMA to do 
things such as life-saving, life-sustaining commodities.
    Ranking Member, in your report it correctly points out we 
have to do more pre-event contracts, but not just at FEMA. We 
need those at the State and local level. We need to make sure 
that State leaders and local leaders are putting pre-event 
contracts in place that I would happily reimburse once they 
activate to do their own level of food, water, hygiene kits, 
and the things that they need, because if we have a no-notice 
event, like a New Madrid or a Cascadia or a large earthquake in 
California, it is going to take some time for us to be able to 
mobilize our forces to get there, if we can even get in.
    Goal 3, reduce the complexity of FEMA. I am my own worst 
critic and I am the agency's worst critic when it comes to 
doing things better. There are policies that we can streamline. 
But we have to streamline specifically the disaster survivor 
experience. We have to streamline the grantee experience. I am 
empowering my staff to help me, and my constituents, to help me 
understand where to make those changes. We had to perform 2.4 
million home inspections this year, physically deploy people to 
look at almost 2.5 million homes. That is an arduous 
bureaucratic process when we have technology that can say, yes, 
it is damaged. It puts me in a tough spot because we have to 
protect the taxpaying dollar against fraud, but we also have to 
move at lightning speed.
    Finally, in closing, there is a misunderstanding that 
recovery has not started in Puerto Rico. That is not the case. 
I was in Puerto Rico last week. I met with the Governor as well 
as my staff. We are pushing forward on 428. We have signed an 
agreement, the guidelines to move forward to do large-scale, 
sector-based, resilient work. The Section 428 will force us all 
to think what is the recovery outcome that we are all striving 
for so that we can put taxpaying money against that to strive 
for a collective vision to ultimately make sure that we do not 
walk through this whole situation again when hurricanes are 
obviously going to hit in the future.
    I look forward to the dialogue today and the constant 
improvement. Thank you.
    Chairman Johnson. Thank you, Administrator Long.
    I will be brief and turn it over to questions, but I did 
want you to detail a little bit more the 428 authority and how 
important that is, rather than, thousands of individual grants, 
create a larger grant bucket so, again, you are streamlining 
that possibility or the approval for those types of things. So 
just spend a little bit more time talking about that, if you 
would.
    Mr. Long. So the 428 program allows for more alternative 
procedures. It makes no sense in this country if we put 
taxpaying dollars to say let us fix the jurisdiction back to 
the pre-disaster condition, only to go through this again and 
again and again.
    The other thing is that 428 is the way that business is 
done in America every day. If I give you a budget and tell you 
to reach X amount of milestones, you have to reach those 
milestones against that budget so that we are calculated on how 
we move forward and push forward. And then if you manage it 
well, for example, if 428 is managed well in Puerto Rico, then 
what is left over in that budget they can keep to do other 
things like pre-disaster mitigation, so there is incentive 
built in.
    The old way of doing business, for example, there were 
thousands of roadway breaches into the system, thousands of 
issues in the water system, thousands of problems with the 
schools, many problems in the hospital system. Instead of 
writing a single project work sheet to fix this roadway breach 
and that roadway breach, that can be re-versioned for the next 
10 or 15 years, over and over and over again, this says let us 
do one project work sheet to fix the infrastructure called 
``roads'' or the infrastructure called ``schools,'' the 
infrastructure called ``hospitals,'' and we collectively push 
forward.
    Chairman Johnson. So spend a little bit more time 
explaining how the law in certainly the past and maybe 
currently requires FEMA just to rebuild, I mean kind of full 
replacement as opposed to, no, let us be smart about this, let 
us build something that is far more resilient to newer 
standards. Just talk a little bit about your constraints that 
still exist.
    Mr. Long. Right. So take the power grid, for example. The 
power grid on Puerto Rico is one of the oldest on the globe, so 
it is nearly four decades old. There are serious problems when 
it comes to just power generation in general and the way that 
it is done. So the emergency process that we go through to make 
sure that people can have power is the emergency process of 
just getting the lights back on. The 428 process, for example, 
is going to allow the Commonwealth, if they so choose and as we 
are pushing, to do things such as replace wooden poles with 
composite poles that will be there for much longer and harder 
to blow down in the future or they are wind resistant. It is 
making improvements and changes through alternative procedures 
to better the system.
    I look at 428--and, also, I met with Governor Mapp from the 
U.S. Virgin Islands (USVI) yesterday. This is the way forward. 
This is the way forward to build resilience which will 
ultimately bolster their economic capabilities so that they do 
not have gaps when they lose hotels and roadway systems and 
power systems that are not consistent.
    Chairman Johnson. But I get the sense 428 is an exception 
to the rule, and the rule is rebuild to what it was.
    Mr. Long. Right.
    Chairman Johnson. Which is somewhat insane from my 
standpoint. How much of what FEMA is rebuilding is done just as 
a complete replacement versus upgrading the standard?
    Mr. Long. Well, under the emergency work, it is a fraction 
of what needs to be done on the permanent side, and I think 
that we have to remember that you do not just build--I mean, 
just expanding a lane out here in D.C. on a major highway takes 
years. We are talking about a lot of work ahead of us and some 
of the first initial estimates for just Puerto Rico, for 
example--and here again, these numbers will change as we start 
to dig in--is anywhere between $40 and $50 billion when we 
encroach on this. I think it is important, Chairman, that 428 
is not a new program. It is just that we have not educated 
Governors and emergency managers on how this process works. 
There are projects that were being used in Louisiana as a 
result of the flooding. It was used in Hurricane Sandy.
    The greatest concern that the Governors have is hopefully 
we hit that estimate right on the first go-around when we enter 
into the agreement to fix the hospitals and the schools and the 
way forward. It is a much more efficient process that allows 
for mitigation to be incorporated in as we go forward.
    Chairman Johnson. OK. Well, thank you. Senator McCaskill.
    Senator McCaskill. So should we require Puerto Rico to put 
up the composite poles with the money we give them?
    Mr. Long. That is a question for the legislature. I do not 
have the authority to require a Governor to do anything when it 
comes to being resilient.
    Senator McCaskill. It just seems weird to me because the 
Governors, I mean, there is way too much thought around this 
place and around everybody in elective office that they are 
just worrying about the next election cycle and maybe not 
enough concern about long term. It just seems to me--I am not 
big on the Federal Government dictating to localities, but if 
it is Federal money and we are the ones that are going to be on 
the hook for more Federal money if they put back up the wooden 
poles that blow over again, that seems that we ought to 
incentivize it maybe that you get 10 percent more if you show 
resiliency in your plans. Maybe we do this with the carrot, not 
the stick.
    Mr. Long. Right.
    Senator McCaskill. And maybe that would be easier on the 
whole friction between local control and Federal control. I 
just throw that out there.
    The contracting thing, I am not going to put you through 
the painful process of acknowledging how bad these contracts 
were. I think you know how bad they were, particularly 
Tribute's contract proposal. I do not know if you have had a 
chance to read it.
    Mr. Long. No, ma'am, but what I can say on the contracts--
and I realize we have work here again.
    Senator McCaskill. Pretty obvious.
    Mr. Long. I was in office 2 months before Hurricane Harvey 
hit, but the facts are we had 59 pre-event contracts in place 
before Hurricane Harvey hit, as I understand it, and that is 
based on a historical need over the past 10 years or so. 
Obviously, it was not enough going into what we saw. We let an 
additional 1,973 contracts after Hurricane Harvey hit. So out 
of that 1,973 contracts, only 3 that I am aware of were 
canceled. OK?
    Senator McCaskill. That is just not true. Your folks are 
giving you the wrong numbers. There were at least 14 that were 
canceled.
    Mr. Long. OK. Well, I will have to----
    Senator McCaskill. The three that you know about it are the 
three that were so egregious, they made the press.
    Mr. Long. OK.
    Senator McCaskill. But you need your staff to do a better 
job because I know you testified to that previously. The 
records show that at least 14 hurricane response contracts were 
canceled, and, frankly, at least 7 of those cancellations 
appear to be due to the vendor's failure to be able to meet the 
requirements.
    Mr. Long. Sure. Well, there is one problem across the 
Federal Government----
    Senator McCaskill. And, by the way, how many they were does 
not necessarily show how impactful they were. Obviously, it was 
30 million meals that were supposed to be delivered--30 million 
meals--and they had delivered 50,000 before everybody figured 
out it was a joke.
    Mr. Long. So here again we try to build in redundancy and 
resiliency into our contracting, so we do not rely on one 
contractor. For example, Bronze Star had two contracts. One of 
them was for blue tarps. I think the other one was plastic 
sheeting. We canceled that. Not one dollar of taxpaying money 
went to those contracts. But we also had four or five other 
vendors that were providing blue 
tarps, and at the end of the day, these were backfilling--we 
pre-staged--we tried to get as much on the island as possible, 
then keep backfilling the logistics pipeline. So there was 
never a stop-gap on blue sheeting or tarp or food. The thing 
about food was it was not that we could not get food to the 
island. We actually purchased around, I think it was, $2 
billion worth of commodities which would rank as one of FEMA's 
most expensive disasters in history alone, just commodities 
getting to Puerto Rico. It was messaging because the 
communications system was put down.
    One of the things that I want to make sure that everybody 
is aware of is that Tribute had problems in the Legislative 
Branch of government, and it was never put on our radar screen 
to be able to see it in the Executive Branch. So the systems 
that we use to initially--so they did work for the Government 
Publishing Office (GPO). Well, the GPO sends out an alert under 
the Legislative Branch, but it does not translate to the 
Executive Branch. So apparently the Legislative, Executive, and 
Judicial branches are using different systems to say, ``Stay 
away.'' Had that translated to the Executive Branch, we would 
have seen it and never even thought twice about touching it.
    Senator McCaskill. Yes, I think there were contracts 
canceled that were in the Executive Branch by this company. We 
do not do that much contracting in the Legislative Branch. The 
contracting is, by and large, all done in the Executive Branch. 
So I am not saying that the databases are perfect. I am not 
saying--but I am saying that some due diligence and common 
sense beyond just checking three databases for a red flag is 
going to be required here.
    The reason I asked you if you read the Tribute contract 
proposal is because I think if you read it, you will be 
startled. It reads like an Internet scam.
    Mr. Long. OK.
    Senator McCaskill. You should take the time, honestly, 
Administrator, to read that contract proposal, because I think 
when you do, your common sense, you would just go, ``Wait a 
minute. This does not even look real.''
    Mr. Long. Sure, so fair enough.
    Senator McCaskill. Let us talk about the tarps. We looked 
at your pre-positioned contracts on tarps, and obviously you 
know you are going to need sheeting and tarps in any kind of 
hurricane disaster. So we looked at your pre-positioned 
contracts, and we looked at the contracts that were issued 
after all the 2017 hurricanes, and only 3.5 percent of the 
total amount awarded for tarps and sheeting went to pre-
positioned contracts. So I think this is something you have to 
drill down on.
    Mr. Long. Sure.
    Senator McCaskill. Because, clearly, we are not using--in 
this instance the pre-positioned contracts were not even being 
used. And, second, clearly we did not have enough pre-
positioned contracts to deal with the kinds of challenges that 
you were facing.
    Mr. Long. Right.
    Senator McCaskill. So do you have any answer as to why only 
3 percent of the pre-positioned contracts would have been used 
on tarps and sheeting, how we would have been in a position to 
hire somebody who clearly had been in existence for 2 months?
    Mr. Long. So, listen, I agree. The bottom line is we can 
always get better on the pre-positioned contracting, but it is 
not solely the responsibility of FEMA. This has to be the 
responsibility of State agencies as well as local emergency 
management, which is something that we are pushing FEMA 
integration teams out, I am getting my people out of my 
regional offices and out of headquarters. I want to embed them 
on a permanent basis with our State agencies to start setting 
up their own contracts.
    Senator McCaskill. Can we do something to help that? Can we 
begin to make a requirement--for example, we do a lot of grants 
to States for emergency preparedness. Can we make a condition 
of those grants that they pre-position contracts for disaster 
for things like sheeting, tarps, food, water?
    Mr. Long. Sure.
    Senator McCaskill. I do not think that needs legislation, 
does it?
    Mr. Long. I am all for incentivizing good behavior like 
pre-disaster mitigation, land-use planning, building codes, 
putting forward contracts. Some States have it. Too many of 
them do not. We have to push forward on how we get them to set 
up and exactly what they need.
    What we also experienced in 2017 was a drain on resources. 
I mean, right now you cannot find enough construction materials 
to get to the Virgin Islands and Puerto Rico. We saw a drain on 
resources everywhere. So when it comes to almost 2,000 
contracts that we let, there is very little time to do the due 
diligence as if this was a blue-sky day and we had plenty of 
time to think about it.
    So what we have to go back and do is we have to look at the 
contractors that performed extremely well and are performing 
well to make sure that they are part of our pre-event cadre 
going forward.
    Senator McCaskill. Well, I know this Committee--and I am 
confident the Chairman would agree with me on this--whatever we 
can do to help incentivize States to be better prepared to 
handle some of this, that we then can confidently reimburse the 
State officials that have found the right contractors to 
deliver, in the long run it is going to be so much less 
expensive when they have located people locally to provide this 
anyway.
    Mr. Long. Right.
    Senator McCaskill. And it is better for the States. You 
build up that base of contracting capability in the States. So 
I look forward to working with you on that, and thank you very 
much for your time here today.
    Mr. Long. Thank you.
    Chairman Johnson. And we would obviously love the input 
from FEMA in terms of which States have the pre-let contracts, 
and I am happy to work with you to include requirements on any 
kind of FEMA grants, or whatever is under this Committee's 
jurisdiction in terms of grants.
    Mr. Long. OK.
    Chairman Johnson. That would make an awful lot of sense.
    I would also just quickly ask, the constraint in terms of 
number of workers in terms of disaster relief.
    Mr. Long. Sure.
    Chairman Johnson. Former Congressman Reid Ribble is head of 
the Roofing Association, and I think DHS called him looking for 
20,000 roofers, and he is short 20,000 roofers.
    Mr. Long. Yes, sir. So let us talk about that, too. At one 
point--and here again the numbers are so huge in what we are 
dealing with, it is hard to say here is exactly what we were 
spending today. But at one point we were spending close to $300 
million a day. That is FEMA. That is the Federal Government, 
putting that down to help others. When I was State Director of 
Alabama Emergency Management Agency, I bet my general fund 
budget was, if I remember correctly, somewhere close to about 
$6 million. So, basically, FEMA is spending every hour or 2 
hours, the general fund budget set aside for a State emergency 
management agency.
    What 2017 has taught not only us--there are plenty of 
lessons learned for FEMA to get better, but it is a call to the 
State legislators and local elected officials to make sure that 
their emergency management agencies at the State level and 
their local emergency managers are well staffed and well 
budgeted, and we cannot ignore the fact that disasters seem to 
be getting worse.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. Mr. Long, it is 
good to see you. You have been a very busy man. We appreciate 
your attendance here today.
    I am also encouraged by the comments you have made related 
to reducing the complexity with FEMA. Certainly that is 
something that we must do, and I appreciate your focus on that, 
also taking and using taxpayer dollars much more efficiently 
than they have been done in the past. And one of those programs 
in particular is the Public Assistance Alternative Procedure 
428, which you have already spoken about in relation to Puerto 
Rico, which will be using those monies.
    But I have also heard some concerns from folks that this 
new program could shift costs to Puerto Rico without ultimately 
saving total funds on recovery efforts, especially if any 
unforeseen challenges should emerge. I would imagine that 
certainly Members on this Committee would also have concerns 
about accepting estimates from the Federal Government without 
input or without at least significant input into those 
estimates.
    So I have just a yes-or-no question to start, and then I 
have some other questions afterwards. So this is simply yes or 
no. Did anyone in those meetings held after the storm in the 
White House--you, the President, Mr. Mulvaney, Mr. Bossert, or 
anyone else--either implicitly or explicitly suggest to 
Governor Rossello or his leadership team that Federal funding 
or support for permanent work in Puerto Rico would be withheld, 
altered, or limited unless he requested to use the 428 program 
as modified by the text found in the amended declaration?
    Mr. Long. No. The bottom line is Governor Rossello is not a 
Governor that can be strong-armed, and I have yet to meet a 
Governor that could be strong-armed. That is just not the 
approach that we take with FEMA, no.
    Senator Peters. OK. Good. As the Chairman noted, costs 
associated with disasters continue to rise all the time. You 
are well aware of that as well. But ensuring accountability and 
efficient use of taxpayer dollars must always be our top 
priority.
    In Puerto Rico, the Federal assistance they stand to 
receive exceeds their entire annual budget over many times, 
actually. And in late November, Governor Rossello held a press 
conference and indicated FEMA will have unprecedented authority 
over approval and use of the money on the island.
    Could you describe this unprecedented authority that FEMA 
is instituting in Puerto Rico and what specifically the 
Commonwealth must do to provide to FEMA prior to being allowed 
to draw down any funds?
    Mr. Long. So here again, we had to implement a manual 
drawdown process for Puerto Rico because of the liquidity 
issues. This is going to sound harsh to Puerto Rico, and that 
is not the case. I am not trying to be harsh, but the bottom 
line is that the Commonwealth had not been able to demonstrate 
the fact that they were going to be able to manage this amount 
of money wisely, and it is my due diligence to protect the 
taxpaying dollars. Initially, when we were putting money in the 
hands of the Commonwealth, too much money was beginning to be 
drawn down at a quick rate that did not make sense to us, so we 
put a stop on it, and we implemented what is called the ``270 
process,'' where it is a manual drawdown process to ensure that 
the money is going where it needs to be and in a thoughtful 
process.
    The Governor and I spoke about this last week, and we 
continue to put forward--and my conversation with the Governor 
was, listen, if you want us to relax the manual drawdown 
process, then I need to understand specifically what the 
Commonwealth's plan is to manage money and how this is going to 
be done. He and Mike Byrne, my FCO, are working through the 
best way forward, because, yes, the manual drawdown process 
does slow things down. But I am caught between a rock and a 
hard place all the time on move at the speed of light, and 
protect the taxpaying dollar. So we are trying to strike the 
right balance, and the Governor and I have had very productive 
conversations, which is why we are able to move forward now.
    Senator Peters. OK. Economic analysis on the Sheltering and 
Temporary Essential Power (STEP) Program, during Hurricane 
Sandy response indicated that the program could save the 
government upwards of $170,000 per household when compared to 
the traditional individual assistance options. I am certainly 
very encouraged, we all should be encouraged by the innovative 
nature of this program, and certainly it is my hope that we can 
continue to prioritize cost savings and recovery.
    My understanding is that the program, though, was slow to 
deploy in Texas and that most people had already found 
alternative housing or were taking advantage of the shelters or 
TSA Program, presumably at much higher cost to the Federal 
Government since housing assistance is paid for at 100 percent 
cost share, as you are fully aware. So my question is: How can 
FEMA, through incentives in the emergency management grant 
programs or through guidance from FEMA, ensure that States are 
prepared to leverage these cost-saving programs and 
successfully manage the very complex web of housing assistance 
with real case management that oftentimes seems to be lacking?
    Mr. Long. Senator, this is an excellent question, and if I 
can take a minute, I am ready to hit the reset button on 
housing, period. I think the entire program is wasteful. I am 
just being honest. I think what we have to hit the reset 
button. I believe I need granting authorities, and I would hope 
that this Committee could lead the way for us to redo disaster 
housing.
    Right now, what we did with Texas specifically is that we 
knew because of the multitude of homes that were impacted that 
the traditional way of doing business was not going to work. 
When people say housing is moving slowly; compared to what 
mission moved quickly in housing in history? I do not know 
where one moved quickly, but the bottom line is we put up more 
options on the table for Texas through direct construction, 
through the STEP Program, through temporary repairs that were 
made, and then we also allowed the Governor to be able to 
purchase through inter-service agreements manufactured homes 
and travel trailers. But the problem is if I go through an 
intergovernmental service agreement to the Governor, who boldly 
stepped up to lead the housing--and he is one of the only 
Governors that has truly done this--he has to follow my 
procurement rules and not the State procurement rules.
    So what I need specifically is granting authority to do 
housing to where I can grant the funding to the Governor and 
the Governor can control whether or not he or she would like to 
do the STEP Program, direct construction to the house, or to 
buy travel trailers off the lot. The most frustrating thing to 
me in Texas is when you are driving out of town and there are 
not enough manufactured homes in this country based on the way 
that I have to purchase them to be able to get to Texas, but I 
drive past private RV lots filled with travel trailers that I 
cannot touch. It makes no sense. If you give me the granting 
authority to push down to a Governor, they can go buy what they 
need, and I reimburse them, and it is much quicker.
    Governors know their people better than FEMA, and they know 
how the housing solutions will work. The fact of the matter is 
a housing plan in Texas is not going to work for what we saw in 
California. It is not going to work in Puerto Rico, either. So 
it has to be granting authority that allows a Governor a 
multitude of options based on whether it was a flood, whether 
it was a wind event, or whether it was a catastrophic fire.
    So I am ready to hit the reset button. I think what we are 
good at, sir, we are good at mission assigning, the Army Corps 
of Engineers to do blue roofs. They did over 60,000 blue roofs 
in Puerto Rico, for example. We are good at supporting shelter 
efforts. We sheltered over 1.1 million Americans in 2017. At 
one point there were close to 300,000 Americans in shelters 
overnight. We are good at doing that. We are pretty good at 
getting money to the citizen who needs to repair their home. 
But after that, I am not a housing construction expert. It 
needs to go to the Governor. The Governor needs to be empowered 
to be able to do what they want to do with a permanent housing 
construction. Then, when it gets too difficult for both FEMA 
and the Governor and the damage to the house is greater than 50 
percent, this is where the Housing and Urban Development (HUD) 
needs to step in. This is where the funding needs to come in 
for HUD to deal with the hard case that we are just not 
designed to manage.
    Senator Peters. Well, I appreciate that answer, Mr. Long, 
and I would love to have a chance to work with you as we try to 
sort that through. I am out of time. I have a number of other 
very detailed types of questions that I would like to present 
to you and work with your staff.
    Mr. Long. OK.
    Senator Peters. And I think there will be other 
opportunities for us to work together to achieve the goal which 
you want to achieve, which is to streamline FEMA as well as 
make it more responsive in terms of taxpayer money.
    Mr. Long. Yes, sir. Thank you.
    Senator Peters. Thank you.
    Chairman Johnson. By the way, you just confirmed why your 
optimal disaster response tag line needs to be reordered to 
State managed, locally executed, federally supported. This is 
to-do number two, the grants on the one side and then in terms 
of housing assistance as well. So let us work together with 
your agency to give you the authority you need. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Administrator Long, I want to thank you for 
the work that you have done as a priority for you as the leader 
of FEMA and the men and women of FEMA have done in California 
in response to the fires and the mudslides. That work has been 
right on time and been very helpful, so thank you for that.
    I would also like to submit a letter for the record from 
the California Office of Emergency Services\1\ concerning the 
Administration's Fiscal Year (FY) 2019 budget request for FEMA. 
In particular, the letter outlines California's concerns that 
the Administration's budget for FEMA has reduced Federal 
funding for education, training, and exercises by 47 percent 
and reduced Federal funding for pre-disaster mitigation grants 
by 61 percent. Mr. Chairman, I would like to submit that for 
the record, please.
---------------------------------------------------------------------------
    \1\ The letter referenced by Senator Harris appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    Chairman Johnson. Without objection.
    Senator Harris. Mr. Long, I appreciate that in your 
testimony this morning you said, and I think I am quoting you 
directly, ``We cannot ignore the fact that disasters seem to be 
getting worse.'' And I could not agree more.
    However, in contrast, I am concerned that FEMA has removed 
references to climate change from its Strategic Plan. The 
previous plan, which covered 2014 through 2018, specifically 
mentioned climate and climate change seven times and devoted an 
entire section to how climate change impacts the risks that 
communities face. What concerns me is that the current 
Strategic Plan does not mention climate, let alone climate 
change, not even once.
    In response, FEMA's Public Affairs Director stated, it is 
``evident that this Strategic Plan fully incorporates future 
risks from all hazards, regardless of cause.'' And I will tell 
you specifically what I am concerned about with that. Climate 
change itself does not cause natural disasters but, rather, 
acts as a force multiplier, meaning it exacerbates the 
environmental conditions that favor disasters like wildfires 
and large wildfires. So when it comes to these devastating 
natural disasters, we cannot plan for the future, I believe, 
without acknowledging, understanding, and incorporating the 
impacts of climate change.
    So my question to you is: How can FEMA adequately prepare 
for future disasters without acknowledging, recognizing, and, 
in fact, even removing acknowledgment?
    Mr. Long. So I really appreciate the question, Senator, 
and, look, I believe the climate is changing. I believe that 
the ocean is rising about 1 inch every decade. But I also 
believe there are other cycles that increase and decrease 
activity, such as thermal circulation. That is how the oceans 
flow around this Earth like a river. It increases, it pumps 
warm water and cold water in and out of hurricane basins, for 
20-and 30-year purposes. OK? I believe in El Nino and La Nina 
and the cycles that take place, and to me El Nino means less 
hurricanes, freak nor'easter snowstorms, and tornadoes in 
places that they do not typically get them. It has implications 
for wildfires in California.
    The Strategic Plan also does not mention earthquakes. It 
does not mention school shootings. It does not mention anything 
specifically because we are an all-hazards agency regardless of 
cause or frequency.
    I cannot solve climate change. That would be similar to me 
saying let us stop plate tectonics and stop earthquakes as well 
while we are at it.
    Senator Harris. So, Mr. Long, I appreciate your point, and 
we do not have to belabor this. But I only have a few minutes 
left.
    Mr. Long. OK.
    Senator Harris. And all I would ask you is that we not play 
politics with issues like this, because as you and I both know, 
those folks who are devastated by these tragic events are not 
thinking of themselves as Democrats or Republicans.
    Mr. Long. Right.
    Senator Harris. They are thinking of themselves as American 
citizens who need help and need their government to be honest 
about what is causing and what is exacerbating these situations 
that are affecting their lives and the lives of their children 
and communities.
    So moving on to earthquake preparedness, I appreciate that 
in your opening statement you mentioned it at least a couple of 
times. According to the United States Geological Survey (USGS), 
there is a 72-percent chance that a large 6.7 magnitude 
earthquake will strike the Bay Area in California within the 
next 30 years. The last time FEMA responded to a major 
earthquake in California was a quarter of a century ago, the 
Northridge earthquake.
    So my question to you is--with the potential for a major 
earthquake to happen at any time, it is obviously imperative 
that FEMA be prepared to deal with this. How are you ensuring 
that FEMA is ready to respond to the next catastrophic 
earthquake, and using all that is available in terms of the 
resources and technology that did not exist a quarter of a 
century ago. So what is happening, and also in light of the 
fact that there is now reduced support for your agency in terms 
of training in the budget that has been submitted by the 
Administration?
    Mr. Long. Senator, going back to the Strategic Plan, Goal 2 
is ready the Nation for catastrophic disasters. I recognize it. 
It keeps me up at night, the low-to no-notice event, whether it 
is a nation-state threat or an earthquake.
    So the bottom line is that I have to move my staff out to 
do better integrated planning with the State of California, for 
example, and other States. I want to get my people out to be 
part of the discussion every day to make sure that we 
understand the gaps fully in California's ability to rapidly 
respond, because if a major earthquake strikes one of the 
cities, San Francisco, for example, we may not be able to get 
supplies in very quickly if the roadway structures there--and I 
realize that. So we have to make sure that the State bolsters 
their own capability and that we are incentivizing them to do 
so.
    The other thing is that, going back to the original 
question and on top of this one, nothing is more effective than 
pre-disaster mitigation. So here again, I do not control the 
resiliency at the local level. We need to make sure that when 
people are building and populating areas that are vulnerable to 
earthquakes or vulnerable to hurricanes, that they are doing so 
in a mitigated manner. The way we address mitigation in this 
country is regressive.
    Senator Harris. I agree with you.
    Mr. Long. You have to have it.
    Senator Harris. We have to do a better job. I agree with 
that.
    Mr. Long. We need to do a better job.
    Senator Harris. Can you provide us, please, with a 
timeline\1\ for what your plan is for making sure that FEMA is 
prepared for California's earthquakes and what you might need 
from California State government? Can you please provide me 
with that as a follow up to this conversation?
---------------------------------------------------------------------------
    \1\ The timeline referenced by Senator Harris appears in the 
Appendix on page 79.
---------------------------------------------------------------------------
    Mr. Long. We would be happy to.
    Senator Harris. And then, finally, a question concerning 
the USVI and Puerto Rico. You probably know that 7 months after 
the hurricane, a lot of the folks in Puerto Rico, for example, 
cannot access disaster aid because so many of them cannot 
provide official documentation that they own their property. 
This is one of the issues that contrasts the States like 
California with the territories. And, in fact, in Puerto Rico 
they have a history, a widespread history of informal land 
ownership, and that makes it difficult for them to obviously 
provide this information, which means they cannot then have 
access to the aid that you otherwise would provide.
    Mr. Long. Sure.
    Senator Harris. Can you tell me what your systems are for 
verifying proof of ownership so they can have access to that 
aid and what your plan is for the future, knowing that they 
have this informal system of land ownership?
    Mr. Long. So I think what is best is I acknowledge, 
Senator, you are right, the old way of doing business was not 
ready to handle this cultural problem that we have when it 
comes to ownership. What happens is that the actual homeowner 
may live in the continental United States. It could be a 
grandmother, a grandfather, or an aunt or uncle, and it is 
something that we are trying to work with, to overcome, to try 
to locate who actually owns the home, because we may be bound 
by the authorities of the Stafford Act to where it is hard for 
us to get around that.
    So what I would like to do is work with my team to say here 
are the fixes that we need to get around or these are the fixes 
that we are temporarily putting into place.
    Senator Harris. Can you give us a timeline\1\ on when you 
expect that understanding and that system within FEMA to be 
established?
---------------------------------------------------------------------------
    \1\ The information referred by Senator Harris appears in the 
Appendix on page 89.
---------------------------------------------------------------------------
    Mr. Long. Sure, absolutely.
    Senator Harris. Thank you.
    Chairman Johnson. Earlier in the hearing, I used the term 
``moral hazard,'' and I think I should point out one of the 
major reasons for the increasing costs of these disasters is 
the very high priced development that has occurred throughout 
the decades in these disaster-prone areas. Again, that is that 
moral hazard that somebody else takes care of the cost, they 
continue to do that. How many times do people rebuild in the 
flood zone? So I think that is a real problem. Senator 
Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman, and thank you, 
Administrator Long. You have had quite a tenure since we all 
got together during your confirmation hearing, and we have 
watched very closely and understand and appreciate that your 
experience with Hurricane Katrina may have helped inform, but I 
am very concerned about what is happening in Puerto Rico, very 
concerned about the ongoing challenges that Puerto Rico 
experiences. And I think, just because it is not on the front 
page of the news, I want to acknowledge that the whole country 
should be helping to help Puerto Rico recover. As a State like 
North Dakota where we had a whole city taken out, we had 
exactly the same problems. People could not access paperwork. 
We have to figure it out, and we have to be engaged and re-
engaged in Puerto Rico.
    But I want to talk about something that is probably nearer 
and dearer to my heart, which is communications systems and the 
ability to have redundant and navigable communications systems 
during a disaster.
    In response to one of my questions for the record in a 
previous hearing, you noted that agencies must proactively 
develop logistics community plans that mitigate the 
destruction, disruption, and overload of communication 
capabilities.
    Mr. Long. Sure.
    Senator Heitkamp. I could not agree with you more that this 
has to be integrated and, this is not something that you build 
from the top down. We build from the bottom up. To date, what 
steps have agencies taken to develop those continuity plans? 
And what role are you playing in the development of those 
plans? I think this has to be one of our highest priorities.
    Mr. Long. So actually improving continuity and resiliency 
of communications capability is Goal 2.4, and we are putting a 
lot of effort into reviving continuity of operations, 
continuity of communications.
    The problem that we may run into is I do not know how much 
of local and State governments have control over to influence 
how the private sector builds a resilient backbone into the 
communications system that we operate on.
    Senator Heitkamp. Can you explain that for me?
    Mr. Long. For example, in Puerto Rico a lot of the 
communications systems that we are dependent upon are owned by 
other private companies. They are not owned by the Federal 
Government, State government, or the local governments, and so 
the private company has to come in and fix it. What they will 
tell you, and probably rightfully so, is that the technology 
changes so rapidly that to invest in a mitigated system is 
costly because the technology constantly has to be changed and 
the systems have to be upgraded to keep up with the way 
technology and information flows----
    Senator Heitkamp. So to that end, obviously Google came in 
and stood up their airborne communications system. A lot of 
things were tested. So it is not just about what infrastructure 
is there and whether that infrastructure is adaptable to what 
you are doing. But what have you learned from Puerto Rico in 
terms of communications? And what should we be investing in to 
be better prepared? I agree with the Chairman that we want to 
mitigate and look at how we can avoid the moral hazard of 
continuing to do the same old thing. But this is backbone 
Emergency 101, that we will need this no matter whether we even 
have a disaster. We have to have this capability.
    Mr. Long. Sure. So, Senator, we learned a lot of lessons 
particularly from Hurricane Maria. After Hurricane Katrina and 
September 11, 2001 (9/11), we learned that we need to be 
interoperable, which means we have to have multiple agencies 
being able to talk to one another. Well, after Hurricane Maria 
hit, we could not communicate, period. So it changes the way we 
did everything, and, for example, we get hit on there was not 
enough food and water on Puerto Rico. That is not correct. 
There was food and water on Puerto Rico. It was messaging to 
the people on where to go to the hubs or to the community 
leaders to be able to go where to get it. So we had to adapt 
not only that communication, but we also had to call in 
military what they call ``case teams,'' putting speakers on 
helicopters and flying over the Commonwealth to say go here, do 
these things, and putting out a public awareness message.
    Unfortunately, a lot of FEMA's Individual Assistance 
Program was moving to a digital platform that forced us to go 
back to navigating by the stars and pencil and paper, again, to 
register people into our systems. I think that we are too 
dependent on the communications backbone. The integrated public 
alert and warning system that we use for nation-state threats, 
we are kind of at the mercy of how redundant and resilient the 
private companies are that we utilize to get the message out.
    Senator Heitkamp. That is exactly my point.
    Mr. Long. That is exactly it.
    Senator Heitkamp. And so what I am trying to get at is how 
are we reaching out to private entities, maybe better 
understanding, better capability, better understanding of what 
we can do. Obviously, Puerto Rico is a discrete area. It is an 
island, so that gave us a little--it is not like it was 
nationwide. That gives us a great little test ground for where 
we can, in fact, deploy different forms of communication. And I 
want to make sure that this is, like you said, the top 
priority, but that we are not creating something that cannot be 
integrated in the communications system that we have; and if it 
cannot, that we are providing redundancy that is totally 
separate from the private sector.
    Mr. Long. Sure. What I would like to do is I can respond to 
you in writing. I would like to go back to my continuity staff 
to talk about the dialogue that they are starting, but part of 
this problem is greater than FEMA.
    Senator Heitkamp. Absolutely.
    Mr. Long. We need to get the Federal Communications 
Commission (FCC) and others involved, and what is the standard 
that we are striving for, because we are becoming more and more 
dependent on digital technology.
    Senator Heitkamp. But we also have more and more 
sophisticated technologies that are more micro. They are not--
if you look at a grid, you think, OK, you are going to stand 
up, a kind of generation to transmission grid. That is pretty 
fragile by weather or by terrorism. What are we doing to make 
sure that we can re-establish micro communications, micro 
energy power distribution? All of these things, this is what I 
want to see in the follow-on report from Puerto Rico. I want to 
know how we are going to be more resilient and more redundant 
both on power and on communications.
    Mr. Long. Sure. So I think that is a fair question to ask 
the private vendors. I am not the expert when it comes to the 
communications. I can tell you what FEMA is doing, but as far 
as the private vendor----
    Senator Heitkamp. But you cannot do it without the private.
    Mr. Long. You are right. We cannot.
    Senator Heitkamp. So it is two sides of the same coin, and 
what I am saying is this has to be a priority, because I do not 
want to see what happened in Puerto Rico happen again.
    Mr. Long. Yes, ma'am.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Thank you, Mr. Chairman.
    Let me add on to that conversation. A big gain that we can 
have from this, Brock, is lessons learned and things that can 
change in the future. You have already mentioned some of those 
dealing with housing, for instance, and how that needs to be 
managed as far as grants back to States, what the Federal 
Government should have, what the State should have, so that 
they can do what they do well in the local entities.
    Is there a pending report that is coming out at some point 
that is kind of lessons learned from 2017, here is what FEMA is 
going to change and the things that we are doing that we see 
that were wrong, but we have the authority to do; here is what 
needs to change but we do not have the authority, we need 
legislative changes on these if you could help us with 
statutes; and here is what private industry needs to be able to 
do, that they have to do just in the free market, but we just 
want to make them aware and, quite frankly, their stockholders 
aware that these are some gaps that are in the system? Will 
something like that come out?
    Mr. Long. Yes, sir. So early on, what we did is we embedded 
what we call ``learning teams'' in our Joint Field Office 
(JFOs) and within the agency, and we were very proactive in 
saying we need to capture exactly what is going on. As a 
result, we are currently working on an internal after-action 
report that I would be happy to share with the Committee, once 
completed.
    Senator Lankford. That would be great, especially the areas 
that obviously FEMA has the authority to be able to do, what 
they need to do right now, but what you do not have the 
authority to do. Do not worry about committee of jurisdiction. 
We are your Committee of jurisdiction. We can help get the 
information out to the different committees.
    Mr. Long. Yes, sir.
    Senator Lankford. But if we just knew what is it that you 
need that are changes, that is inhibiting you from doing the 
work--and, again, a classic example of that already is your 
comment about housing. That is something that there is some 
prohibition in statute that you can do. We have to be able to 
find a way to either debate that and fix that or to be able to 
change your authorities or whatever it may be. Those are things 
that we need to fix for you to be more productive.
    Mr. Long. Senator, one thing that is really important to 
point out is that it is not just FEMA that is in this game. We 
coordinate roughly over 30 different agencies and the fire 
power of 30 different agencies down, and one of the goals about 
reducing the complexity is how we streamline all of the 
funding. How do I go tell your Governor that this is what you 
are entitled to from these different agencies to fix the 
community? How do we get them to move in an expedited manner? 
For example, HUD funding, Community Development Block Grant 
(CDBG)-GR funding, is a fantastic piece of funding that is much 
needed by a community, but what happens is from the 
announcement, there has to be a 6-month period to write the 
Federal Register. There is a 3-month period to write the action 
plan on how you are going to use that funding. And then there 
is another month on top of that to make sure that we all agree, 
and then the money does not hit for a year.
    Senator Lankford. Well, 2 years later.
    Mr. Long. So it makes it very difficult for a Governor to 
understand, well, I have to use FEMA money for this and these 
projects; based on cash-flow, here is what I think I can hit on 
my recovery priorities, and I have to wait for this HUD funding 
to hit. And then there is Federal highway funding. There is 
Small Business Administration (SBA) funding.
    Senator Lankford. So where do we go to get the overview of 
that? How do we get that?
    Mr. Long. Well, we start with my agency, and let me point 
you in the right direction.
    Senator Lankford. Great. That would be helpful to be able 
to get. Again, there is a big fight here typically on 
committees of jurisdiction and who has that and who does not 
have it. What we need to be able to have is members--and all of 
us are members are multiple committees. What we need to be able 
to have is the ability to be able to see these are the issues 
and to be able to get them out to the right committees to be 
able to make some of the decisions that need to be made, rather 
than worry about them, sorry, you are writing a report that is 
someone else's deal. That does not work very well.
    Mr. Long. Right.
    Senator Lankford. That does not solve the problem. So if 
you can give us a big picture and just know from our 
perspective at least, tell your folks not to worry about, ``I 
am sorry, you cannot write about that because that is someone 
else's agency.'' If there is a communication issue or if there 
is a part of it--I have already had the ongoing conversations, 
for instance, on wildfires. Wildfires in California, if there 
are so many structures that are destroyed, tragically, you are 
involved. If it is a wildfire in western Oklahoma and it is 
cattle and fences and sheds, then Farm Service Agency (FSA) 
does it.
    Mr. Long. Right.
    Senator Lankford. If FEMA engaged in it, they are going to 
get a response back in 30 to 45 days. It is going to be very 
rapid to be able to help them turn around a check. If FSA does 
it under U.S. Department of Agriculture (USDA), it will be a 
year to 2 years for them to get relief. Both of them had a 
fire, two different structures, two different systems on it, 
and so we have to be able to figure out a way to be able to 
solve that.
    Mr. Long. Yes, I agree, Senator, and the problem with the 
National Disaster Recovery Framework is it may be a plan 
without authorities given to the agencies that are truly in 
charge of things like power or housing. We can ceremoniously 
put HUD in charge of housing or Department of Energy (DOE) in 
charge of energy, but where the problem comes in is: Do they 
really have the authority and the funding mechanism to be the 
lead? Or are we just coordinating? Does FEMA end up being the 
lead for all of it? A lot of it that we are told to lead, we 
are not the experts for.
    Senator Lankford. Right. So, Brock, you are going to have 
to help us with that.
    Mr. Long. OK.
    Senator Lankford. Let me mention a couple of other things 
as well. I do appreciate FEMA and how you continue to be able 
to partner with not only for-profit entities for contracting, 
but nonprofits that are out there, church groups, faith-based 
groups, whatever it may be. You are basically taking and 
coordinating whoever is coming to help to help. Oklahoma 
Baptist Disaster Relief during what was happening in Houston 
was delivering 20,000 meals a day, just down there working with 
the Red Cross and getting a chance to get it done. We had 
multiple of our power companies that they picked up folks that 
have gone to Puerto Rico. In fact, we had another group from 
Oklahoma that just came back a few weeks ago. We are continuing 
to be able to send folks down there.
    Thanks for the way that you are continuing to coordinate 
and not have to say you have to be in this certain box, but 
that you are working through who is coming to help and trying 
to be able to work with all those groups on it. And so I 
appreciate that.
    Mr. Long. Yes, sir, and the nongovernmental organizations 
(NGOs) and the faith-based community are a tremendous asset and 
one of the greatest assets in this country to help us 
overcome----
    Senator Lankford. And then you can----
    Mr. Long. We cannot do it without them.
    Senator Lankford. Yes, and they can continue to be used. 
There has been a few in government for a while of saying, ``I 
am not sure about that.'' We need to continue to be able to use 
those faith-based and nongovernmental groups to be able to 
partner with them.
    Mr. Long. You are right. What is beautiful about utilizing 
these agencies is that they do not have to adhere to my bulky 
Federal bureaucratic laws. They can do things that I cannot do.
    Senator Lankford. And rapidly.
    Mr. Long. What I want to figure out is how we get the NGO's 
on the front end of pre-disaster mitigation to help people 
before disaster strikes rather than just being seen on the back 
end as well. So how do we shift the mindset of maybe they can 
start installing hurricane clips for areas that are vulnerable 
to hurricanes and tornadoes.
    Senator Lankford. Be helpful, yes.
    Mr. Long. There are a lot of things that we can do.
    Senator Lankford. Let me mention just a couple of other 
things. I want to give you another thank you for how you are 
working through with houses of worship, which has been 
completely confusing to me for years why, if a nonprofit there 
is hit with a disaster or a for-profit business or a house, 
they are treated one way, but if you are a house of worship, 
regardless of your religious affiliation, you are treated 
completely separately. Thank you for actually trying to draw 
those two together. We have now followed that up with a statute 
to make sure that that actually stays permanent on that. But 
that has been a lingering issue with FEMA for a long time. With 
the list that you come back with, whenever you bring that back, 
things I am going to watch for: electric grid, what has been 
durable and what is non-durable in the electric grid, what have 
we learned. I have talked with the Corps of Engineers, and it 
is my understanding when you actually talking about power 
coming back on and what actually is producing power, there are 
lessons to be learned about lines and about the poles. But 
there are also lessons about the power generation as well, what 
worked, what did not work, what survived disasters, what did 
not. There may be some lessons learned that we need to be able 
to get on that.
    The flood insurance is still a big issue for me, and for 
you, I am quite confident, but that is learning how we can 
solve the multiple repetitive claims issues and any 
recommendations that you have. As you know, this Committee and 
others are dealing with the flood insurance issue for a while, 
and we are going to--I would hope we would get into duplication 
of coordination, as you have already mentioned. Any reports 
that you can give to us on that would be very helpful, and then 
we will try to follow through in the days ahead to resolve it. 
So thank you very much.
    Mr. Long. Sure. We would be happy to provide ideas. Thank 
you.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you very much, Mr. Chair and Ranking 
Member McCaskill. Good morning, Director Long. It is good to 
see you.
    It is fair to say, and I know that you have heard it 
already this morning, that many of us in the Senate were 
unsatisfied with the rate of recovery in Puerto Rico after 
Hurricane Maria hit the island. You were quoted last week 
saying that rebuilding Puerto Rico would cost $50 billion and 
that Puerto Rico was running out of time before the next 
hurricane season, which starts on June 1.
    Certainly the recent announcement that the U.S. Department 
of Housing and Urban Development will provide the island with 
$18.5 billion in developmental assistance is a huge step in the 
right direction. However, other reports suggest that just under 
20 percent of the island is still without power, including more 
than 100,000 residents.
    So why after 6 months does Puerto Rico still ``have a long 
way to go,'' as you have said? Certainly its infrastructure 
challenges play a role. I understand that. And I know you spoke 
earlier about getting 428 authority. However, I want to know 
what specific steps FEMA and the U.S. Government will take in 
the coming months to help the island so that when you appear 
before this Committee again in 6 months we are not hearing 
about the same infrastructure obstacles we have been dealing 
with since the storm?
    Mr. Long. Sure. One, rebuilding the infrastructure, I think 
we all have to back up and remember that a lot of the 
infrastructure was not functional, including major portions of 
the power infrastructure.
    Senator Hassan. I understand that. I have heard you give 
that explanation before. I understand the challenges. What I 
want to know is what it is the United States of America and 
FEMA are doing, understanding those challenges, so that we can 
make as much progress as possible. What specific action items 
do you have?
    Mr. Long. Sure. So the bottom line is we have over 4,000 
employees there. I am getting ready to be one of the largest 
employers in Puerto Rico. We have hired close to 1,500 Puerto 
Ricans that we are training to be the Commonwealth and the 
municipal emergency management arm. We are doing a train-the-
trainer and making sure that they understand our systems as 
well. In readiness for hurricane season, we are rewriting plans 
at all 78 levels of government that did not exist. We are 
rewriting the Commonwealth plans on their behalf and working 
with them. We are making sure that leadership is being put into 
place. But we are also getting ready to go through a set of 
culminating training and exercise, I believe, June 14, there is 
going to be a full-scale exercise with the Commonwealth and 
with the municipalities to actually run through physical 
movements such as commodities.
    We have tremendously increased the amount of warehouse 
space that we have on the island and stocked it, in some cases 
for water. I think the last number I saw--and we can get you 
specifics--is there is a sevenfold increase of water that is 
being pre-positioned on the island. Then on the June 14 
exercise, it is my understanding that we are going to be 
running those commodities and demonstrating how the new 
distribution plans will work and the municipalities that 
participate in the exercise are going to be able to keep those 
commodities to be able to store for future disasters. There is 
a lot that we are doing to ready the Commonwealth.
    Senator Hassan. Well, I would love it if your team would 
follow up with us and give us kind of the full sense of plan 
here, because, again, I understand the problems you are dealing 
with, but what makes you all FEMA and what makes the United 
States the United States is that we do not look backward, we 
look forward.
    Mr. Long. Sure.
    Senator Hassan. And we respond on the ground to make sure 
that our people have what they need in the face of disaster.
    I also just wanted to touch with you on the FEMA Strategic 
Plan. You and your team argue in that plan for simplifying the 
process by which FEMA administers assistance. I think we would 
all support the elimination of unnecessary red tape. In my 
State, it appears that bureaucratic disorganization has 
contributed to lengthy response times from FEMA. For instance, 
in one town in New Hampshire that was hit by a damaging storm 
last July, FEMA has sent 22 people on six different occasions 
to assess and reassess the same damaged roads. The frustrated 
fire chief of that town who has managed the town's recovery--
and I have to tell you, he has been managing recoveries for a 
long time and is a smart, able businessman when he is not being 
fire chief. He has told us that several of the FEMA personnel 
had to be shown how to use a tape measure and how to calculate 
the costs. FEMA has yet to release any funds to the town.
    With that said, you have highlighted how emergency response 
requires interacting with multiple levels of government and in 
many cases interacting with several different agencies within 
each level of government, something I certainly appreciate as a 
former Governor. Therefore, FEMA's assistance and coordination 
system, it is complex by design because you are supposed to 
coordinate here, but how are you going to address this 
necessarily complex system and attempt to cut out steps or 
simplify this process?
    Mr. Long. So in regards to the specific issue that you 
raise, I am not aware of that, but I would be happy to--I will 
personally call Perry Plummer, the director in your State, to 
follow up on that issue.
    Here is what we ran into and what I learned about staffing 
patterns and the way the system is set up. We had roughly--I do 
not know the exact number. We had too many people dispersed 
across the country working disasters that are pretty small, in 
my opinion. Now, the term ``catastrophic,'' it lies in the eye 
of the beholder. You lose your house, you are uninsured, I 
realize that is a catastrophic----
    Senator Hassan. You are a small town with very little 
infrastructure.
    Mr. Long. Right.
    Senator Hassan. And a volunteer fire department.
    Mr. Long. So if I remember correctly, there is a Government 
Accountability Office (GAO) report that says roughly 80 percent 
of the disasters that FEMA has to work with are less than $41 
million when it comes to putting out public assistance funding.
    My question is: How do we get to the point where we become 
almost a granting agency to push the funding out, the public 
assistance funding through the Governor to where they have the 
trained staff, we simplify the systems to where they can put 
the money in the infrastructure back to work without me having 
to roll my staff even to your State? We are having to 
constantly break down the policies, and one of the problems 
that we have is the inspection process. It is not just FEMA 
that does inspections. It could be Federal Highway, the U.S. 
Department of Transportation (USDOT). There are a number of 
inspections that take place. But when it comes to dealing with 
specifically the disaster survivor, how do we do one inspection 
that cuts across every bit? We are not there yet. I do not have 
an answer. But here again, we are trying to kick-start the 
effort to reduce the frustration.
    Senator Hassan. And I appreciate that, and I also know, Mr. 
Chair, that I am out of time. The one thing I would ask you to 
think about, because this is something that small States run 
into a lot, is that the Federal Government tends to look at 
comparables, and they say, ``Well, this disaster is only a $1 
million disaster. It does not really need people.'' In my 
State, that is a huge disaster.
    Mr. Long. Sure.
    Senator Hassan. And we do not have the people or 
infrastructure necessarily to receive those dollars from the 
Feds without help because of our scale. And so I just would ask 
that you guys consider the State scale, not just where the 
State falls in the Federal size. Does that makes sense?
    Mr. Long. Here is where this Committee can help. We need to 
increase State management costs. Right now it is 3.34 percent. 
It should be roughly 12 percent. OK?
    Senator Hassan. Yes.
    Mr. Long. So that when there is a smaller disaster, if 
there is a $10 million or $20 million disaster, they can take 
12 percent of what we are going to potentially obligate or 
obligate to hire force account labor or consulting firms to 
augment their capability to be able to do it. That is the 
direction we need to go because I cannot continue to send staff 
out to do every $2 million disaster. The Nation needs me to be 
ready to go for the Hurricane Marias and the Hurricane Harveys 
and the Hurricane Irmas.
    Senator Hassan. Well, and I understand that, and I think 
the people in my State would say, with respect, if there is 
flexibility and targeted ways we can do this, that is great. 
But they pay taxes, too, and need FEMA to be there for them.
    Mr. Long. Sure.
    Senator Hassan. Because their disasters are as devastating 
to them as any disaster. So I would look forward to working 
with you on that. I think we have just got to get the balance 
right. Thank you.
    Thank you, Mr. Chair, for letting me go over.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman. Mr. Long, thanks 
for coming here today. It is good to see you again. I know you 
have been Administrator for less than a year, and you have 
already had to help navigate our country through some very 
difficult times. Thank you. I know it has been some long hours.
    Mr. Long. Thank you, Senator.
    Senator Daines. However, there is always room for 
improvement. I appreciate you making a concerted effort to 
learn from last year's lessons. It is critical we identify ways 
to do things better in the future as people lives and 
livelihoods, as you know, are at stake.
    In Montana, we experienced historic droughts. It seems like 
last year was either too much water or not enough water, and we 
were on the not-enough-water side. We had 2,400 wildfires 
burning 1.4 million acres. I want to thank you for working with 
me--you took a call in the middle of one of our battles we were 
fighting in a fire in eastern Montana, in Garfield County--and 
for your assistance in getting Montana additional emergency 
funding last year. Your rural roots contributed to helping 
understand the fact of how do we deal with these disasters that 
hit rural America, where sometimes our conventional formulas do 
not always factor in, how we should think about assessing the 
need.
    Even with the significant snowfall we are getting now this 
year in Montana, early forecasts already are saying we are 
going to have above average fire potential this summer. That is 
a fire prediction I did not like to hear.
    As you mentioned in your testimony, we need to ensure that 
we are not just ready for catastrophic hurricanes but also for 
other natural disasters. In Montana, our concern is wildfire 
and how to prepare best for the upcoming season.
    FEMA declared eight fire management assistance grants 
(FMAG) for wildfires in Montana last year. I understand that 
with these grants there is a fire cost threshold that must be 
reached before eligible for reimbursement. But in a State like 
Montana, where we can have thousands of wildfires that are put 
out before they contribute to a major disaster, these smaller 
costs still add up and deplete State and local funds. 
Furthermore, clear guidance for frontier counties and their 
eligibility for fire management assistance grants is sometimes 
lacking. And I agree with your plan of making emergency 
response federally supported, State managed, and locally 
executed. A little breath of federalism is always refreshing 
here in these massive bureaucracies in Washington, D.C.
    Moving forward, my question is: How can FEMA and States 
like Montana with rural communities better work together to 
utilize Federal grant programs to mitigate the damage done by 
wildfires?
    Mr. Long. So, Senator, excellent question. I have had very 
spirited conversations with Governor Bullock on going forward, 
and I understand that your State has been totally ravaged by--
almost like a death by a thousand cuts when it comes to the 
number of fires. The problem is that--how do you declare a fire 
season? If I declare a fire season, then do I have to declare a 
severe weather season for another State? It is difficult. It is 
my understanding in the omnibus that was recently passed there 
are some legislative fixes with Department of Interior (DOI) 
and Agriculture to help offset some of the costs that I cannot 
cover through the FMAG Program. But I think that what we are 
having to do inside FEMA is reset the bar and the intent of the 
FMAG Program internally and with our regions to say the purpose 
of this grant funding is to prevent a fire from becoming a 
major disaster declaration. We have to increase the dialogue 
that we have with our State partners to make sure that we are 
on top of it and helping to do all we can to suppress that fire 
before it gets way out of hand.
    But the issue at hand is we look at each fire as an 
individual fire. I do not know if I actually have the authority 
to look at the multitude of fires and declare one season, 
because you get into this complexity about incident period. Was 
it the same drought that is causing--was it the same weather 
system that caused all of the flooding, for example? Do we 
declare that whole period or incident as one disaster? With the 
fires, it is something that we have got to work through, and I 
would be happy to continue the dialogue. But it is also 
continuing the dialogue on where FEMA begins and ends, where 
DOI and Department of Agriculture also support as well.
    Senator Daines. Well, thank you, and that dialogue will be 
helpful. It is also worth noting we have also got to get better 
at preventing and reducing the risk of these and severity of 
wildfires through better force management, and that is 
something else I am working on aggressively, because as these 
combustibles continue to build in our forests, they either burn 
or they are harvested. There really is not an option, there is 
not a Choice C in that multiple choice equation. So we have to 
do a better job as well as managing our forests, because as I 
have said before, either we will manage our forests or they 
will manage us.
    Mr. Long. Right.
    Senator Daines. So we have to fight kind of a two-front war 
here.
    Switching gears, I have introduced a bill, the Homeland 
Security for Children Act, that would simply ensure DHS' Under 
Secretary for Strategy, Policy, and Plans, including input from 
organizations representing the needs of children. I am 
soliciting stakeholder feedback in developing policy. I say 
that as a Daddy of four kids myself; further, that a technical 
expert at FEMA be authorized to lead as external collaboration 
and policy developments to integrate the needs of children into 
activities to prepare for and respond to disasters. The bill 
has already passed out of this Committee, and the DHS 
reauthorization also includes its language.
    Mr. Long, as the Administrator of FEMA, how would this bill 
better equip you to protect our kids in the event of a tragedy?
    Mr. Long. So, Senator, we do have programs that are geared 
toward helping children specifically cope with the aftermath as 
far as mitigating the impacts of disasters. I would have to 
look into that. Let me go back to my staff, and then we could 
provide that in writing.
    Senator Daines. We are trying to give you another vehicle 
there to help in that regard.
    Mr. Long. Sure.
    Senator Daines. Both in preparation for and then after the 
fact.
    Last, I know Puerto Rico came up. As we saw in Puerto Rico 
following Hurricane Maria, establishing communications is 
critically important to effectively respond to a catastrophic 
event. I spent over a decade in the tech sector in cloud 
computing, and I am well aware of the need of reliable 
connectivity.
    Mr. Long, how is FEMA leveraging technology to improve 
communications following a natural disaster?
    Mr. Long. Well, we have a long way to go, and in some cases 
I want to move away from manual processes to incorporate more 
technology to help us rapidly assess and approve assistance 
that goes forward. For example, as I quoted earlier, we had to 
do 2.4 million home inspections. Why can we not use technology 
and imagery to say, yes, these houses are damaged, there is 8 
feet of water in this house, therefore it is approved, rather 
than having to go through the cumbersome process of sending 
people out to verify damages. But we have to be careful to 
protect against waste, fraud, and abuse, which I do not think 
most disaster survivors by any means are trying to do. But we 
have to protect the taxpaying dollar, so it is the right mix of 
technology as well as the manual processes that we have to keep 
to ensure that the dollars are being right.
    The other thing on technology is we have had a very healthy 
discussion on redundant and resilient communications in regards 
to wildfires. As we were talking earlier, the communications 
systems were blown out by Hurricane Maria. Well, they were 
burned up in California. So a lot of this is outside of FEMA. 
How do I help the private sector or how does the Senate engage 
the private sector on mitigating these communication backbones 
to where we do not lose them for all hazard? Because if they 
are gone, for example, with the California wildfires, we lose 
our ability to communicate alert and public warning to 
citizens.
    We have got a long way to go, and I think that there is a 
lot of work that we can do to be more innovative in 
incorporating technology.
    Senator Daines. I am out of time here. I want to tell you, 
Mr. Long, I know in your job you usually only are getting 
criticized and rarely affirmed. I think you are doing a great 
job.
    Mr. Long. Thank you, Senator.
    Senator Daines. You have had a tough year, and I appreciate 
your leadership, your attention to detail, your willingness to 
engage us when we are in times of need, and keep up the good 
work.
    Mr. Long. Thank you. Thank you, Senator.
    Chairman Johnson. Senator Jones.

               OPENING STATEMENT OF SENATOR JONES

    Senator Jones. Thank you, Mr. Chairman. And, Mr. Long, 
welcome, and thank you for your service. I want to echo what 
Senator Daines said about your job, your performance now, but 
also thank you for your service to Alabama, my State. It was 
very important. You worked tirelessly for the folks in Alabama. 
We have our share every year it seems, between tornadoes or 
hurricanes. We sit up in the spring waiting for that next 
tornado to hit, and then late summer and fall, it is always a 
hurricane going to hit the Gulf of Mexico. So we have had our 
share. It was 20 years ago this week, I think, that I was 
United States Attorney, and I toured the F5 tornado that went 
through Oak Grove and areas where my family had serious deep 
roots, both in their homes and their churches. The damage that 
can cause--and I would urge colleagues, if they have never, if 
something hits their State to go see. You cannot appreciate it 
on television like you can in person. It will take your breath 
away.
    Recently we had another tornado, a storm that hit in kind 
of the northeast section of Alabama that did a significant 
amount of damage in a number of counties, including damage to 
Jacksonville State University, a number of their buildings. 
Fortunately, it hit during spring break, and none of those 
students or very few of those students were on campus.
    Can you give me any update about FEMA's interactions with 
our State authorities? I want to make sure that everybody is 
doing everything that they can to make sure that we have the 
appropriate documentation to maybe get some help.
    Mr. Long. Senator, absolutely, and I will follow up with 
you in regards to what specifically is taking place, or the 
process when it comes to the damage assessments that are being 
done in Alabama. Tornadoes are typically tough, particularly on 
rural communities, because a lot of what they impact is 
typically insured. Like Jacksonville State, hopefully a lot of 
those buildings are insured, which cuts against the numeric 
indicator that would suggest that disaster declaration support 
is needed from the Federal Government, which is the way 
insurance should work.
    Senator Jones. Right.
    Mr. Long. But one of the things I will do is go back and 
make sure that we respond to you on where we are in that 
process, and if there are any issues, I would be happy to----
    Senator Jones. Great. It is my understanding from some 
information we got from the State yesterday that they are 
preparing a package that the uninsured costs now will probably 
top $35 million, so if you could just keep my office updated on 
that, and if there is anything that we can do to help with 
that, I appreciate it.
    Alabama, last year we had Hurricane Irma, and it is my 
understanding that as of April 9, the State completed their 
paperwork and closed that out in record time. So we are good 
stewards of the FEMA money.
    The second thing I want to talk about is really in 
Anniston, Alabama, we have a training center out at the Fort 
McClellan area, a training center for domestic preparedness, 
which is a training facility for State and local and tribal 
leaders from all over the country that come there every year. 
The President's Fiscal Year 2019 request for the Center for 
Domestic Preparedness (CDP) would be reduced despite the fact 
that the impacts of the 2017 natural disasters show that 
resources, in my view, for CDP should actually be increased. In 
order to respond to the 2017 hurricanes and wildfires, the CDP 
activated a personnel mobilization center at its facility in 
Anniston and processed some 5,335 responders through that 
facility.
    Unfortunately, when they did so, they had to shut down the 
regular training for over 2 months, which cost training that 
had been scheduled for some 2,400 students from across the 
country that just could not go and that were delayed.
    So I guess my question is: If we are trying to create a 
culture of preparedness, as you state--and I think that 
everyone would agree with--it is important that we educate and 
train our State and local emergency managers. And what can we 
do to find ways to accommodate both training at the CDP and 
mobilization needs should those come up during the course of 
the year? And should we not prioritize resources toward 
developing that capacity?
    Mr. Long. Senator, I think, as I said earlier in my 
testimony, money is tight and the bottom line is with grants 
and training, I agree, there is nothing more important than the 
trained emergency manager. The fiscal year 2019 budget was 
basically put together before what we just went through in the 
2017 season, which is something that I think we all understand 
as well. But when it comes to training at the local and State 
level, it cannot just be on FEMA's shoulders to do so. I think 
that it is time for the State Legislature of Alabama and other 
States to consider whether or not the Alabama Emergency 
Management Agency has its own robust training capability and 
dollars as well. This is a shared responsibility. Preparedness 
is everybody's responsibility, from every citizen all the way 
up to my office.
    We are getting to a point where we need to evaluate how 
much the Federal Emergency Management Agency can continue to 
supplant across this country for the multitude of programs that 
we run, and something has got to give at some point. I wish I 
had tons of dollars to train everybody, but that is just not 
reality.
    Senator Jones. Right. Well----
    Mr. Long. The CDP, incredibly valuable asset. I have got 
great people down there. That is the disaster lab that I hope 
to better incorporate on how we utilize our entire training 
network.
    Senator Jones. That is great. Well, thank you very much. 
And I appreciate that, and I also understand and know from your 
experience in Alabama that this is not the first time you have 
advocated for State training and for legislatures in Alabama to 
step up and do the right thing. So I appreciate that comment. I 
agree with you 100 percent. We will do what we can from our 
standpoint, and I will be happy to go with you to talk to the 
Alabama Legislature sometime if they step up.
    Mr. Long. Thank you, Senator.
    Senator Jones. Thank you so much for being here. It is 
great to see you.
    Mr. Long. Thank you.
    Senator Jones. Thank you, Mr. Chairman.
    Chairman Johnson. Thank you, Senator Jones.
    I had about 2\1/2\ minutes on my first round of questions, 
so let me quickly ask two follow up questions.
    First of all, as it relates to insurance, from my 
standpoint, preparedness, part of that equation really is being 
adequately insured. I mentioned moral hazard earlier. Do you 
believe that because of the Federal Government--and let us face 
it, we have been spending billions of dollars. Do you think the 
Federal Government's involvement has actually incentivized 
people not to carry adequate insurance? And if so, to what 
extent?
    Mr. Long. Well, when it comes to citizens, I think there is 
this myth that FEMA is an all-encompassing insurance agency 
that can put your life back together, and that is just not the 
case. If you look at Harris County, TX, for example, and some 
of the initial numbers--and here, again, these numbers will 
change as more policies are put into place. FEMA's average 
payout typically in individual assistance is like $4,000 to 
$6,000 versus those who were insured through the National Flood 
Insurance Program (NFIP), I think the average payout was over 
$100,000. So insurance is the first line of defense.
    Now, when it comes to governments, if we truly want to have 
a conversation about reducing disaster costs, in addition to 
doing pre-disaster mitigation, then let us look at the 
categories of permanent work that FEMA performs under the 
Stafford Act. One of those is Category E, which is public 
buildings and content. Cities and counties that self-insure 
their buildings or basically do not have insurance for their 
buildings, FEMA is on the hook to fix. Is that an opportunity 
for the private sector and the insurance companies to step up 
and insure that? Is that an opportunity to where I can reduce 
costs and the private industries should take over and be able 
to insure those?
    Chairman Johnson. My question: Are you seeing an uptick in 
the self-insurance, in other words, having no insurance?
    Mr. Long. Well, in citizens, the unfortunate thing is 
that--what we just saw in California was unfortunately people 
who were struggling in retirement pay off their house, they let 
their insurance lapse, their fire insurance lapse, and then 
their house burned up. And they ultimately let it lapse to be 
able to have a couple hundred extra bucks a month in their 
paycheck. That is a big problem, and education and budgeting 
problem.
    Chairman Johnson. Again, are you seeing data that is 
actually growing?
    Mr. Long. We can get that to you.
    Chairman Johnson. OK. I would appreciate that.
    Mr. Long. We would be happy to.
    Chairman Johnson. Second, I was struck by your testimony 
about the fact that you could not prove ownership. Now, is that 
something completely unique to Puerto Rico, or are you seeing 
that in other areas of the country?
    Mr. Long. The volume within Puerto Rico is very unique, 
yes.
    Chairman Johnson. But is it totally unheard of in the rest 
of the country?
    Mr. Long. It is not typically a major problem across the 
rest of the country. In some cases what we run into is people 
claiming ownership when they do not. It is more fraud than 
anything.
    Chairman Johnson. OK.
    Mr. Long. But Puerto Rico is just the sheer volume.
    Chairman Johnson. OK. Well, again, those are my only two 
questions. Senator McCaskill.
    Senator McCaskill. I will have some for the record.
    Mr. Long. OK. Thank you, ma'am.
    Chairman Johnson. So, Administrator Long, first of all, 
again thank you. I do not envy you your task. I do believe that 
you have the appreciation and I think the respect and, quite 
honestly, the confidence of this Committee, which is saying an 
awful lot. So we do appreciate that, and please convey our 
sincere appreciation to all the men and women that have worked 
with you not only in FEMA but throughout the government 
agencies in really responding to something that was just 
completely unprecedented. So we truly appreciate that.
    With that, the hearing record will remain open for 15 days 
until April 26 at 5 p.m. for the submission of statements and 
questions for the record.
    This hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
